ARKANSAS COURT OF APPEALS, DIVISION II
2019 Ark. App. 173
March 13, 2019
Jim R. Nash
Vs.

Appellant
No. CV-17-827

Norma Nash, Individually, and as Trustee of the
Norma F. Nash Living Trust; John Nash, Jr., Individually, and for Norma Nash, Deceased, as Co-Trustee of
the Norma F. Nash Living Trust, and as Co-Administrator of the Norma Nash Estate, Pam Nash Glover,
Individually, and for Norma Nash Deceased, as CoTrustee of the Norma F. Nash Living Trust, and as CoAdministrator of the Norma Nash Estate; Susan Nash
Lyle, Individually, and for Norma Nash, Deceased;
Perry Nash, Individually, and for Norma Nash, Deceased; and Gaylen Mcclanahan.
Appellees
Appeal from the Pulaski County Circuit Court, Second
Division [No. 60CV-15-1789] Honorable Christopher
Charles Piazza, Judge

Ap1

AFFIRMED, MIKE MURPHY, Judge
Jim Nash, a licensed attorney appearing pro se,
appeals from a jury's defense verdict on his claims for
breach of contract, specific performance, and tortious
interference with a business expectancy. Appellant argues six points for reversal, but his primary contention
is that there was no compliance with Arkansas Rule of
Civil Procedure 25 following the death of the original
defendant. We affirm.
Appellant performed legal services for his brother,
John R. Nash, Sr., for many years. These services included representation in administrative and regulatory matters and in the sale of a convenience store and
a warehouse, as well as attempts to sell a liquor store
owned by John R. Nash, Sr. According to appellant, he
had an oral agreement with his brother to provide legal
services on an as-needed basis and a "pay when you
can" basis. After John R. Nash, Sr., died in April 2012,
his widow, Norma Nash, informed appellant that his
services were no longer required. A small estate proceeding was opened for John R. Nash, Sr., and appellant filed a claim against his estate for unpaid legal
work.
Appellant subsequently sued Norma in April 2015
both individually and as trustee of the Norma Nash
Living Trust (the trust). Appellant alleged in his complaint a breach-of-contract claim that Norma was
Ap2

transferring almost all her assets, including the liquor
store, to the trust as a fraudulent transfer to defeat any
claims against her husband's estate. The complaint
also asserted claims for specific performance and
tortious interference with a business expectancy. A discovery dispute arose, and appellant filed a motion to
compel and a request for sanctions. However, Norma
died on February 28, 2016.
A notice of suggestion of death was filed on March
22, 2016. Appellant filed a motion asking the circuit
court to appoint both John R. Nash, Jr., (Nash Jr.) and
Pam Glover as special administrators to represent Norma's estate and her trust.2 The trust responded to the
motion, asserting that no probate proceedings had been
opened and that no one had been appointed to succeed
Norma. On May 18, 2016, the circuit court entered an
order holding appellant's motions to compel and for
sanctions in abeyance and directing appellant to file a
substituted complaint to "include the proper parties to
substitute for Defendant Norma Nash, now deceased,
and any other proper parties to this action[.]"3 The order also stated that the amended complaint to be filed
would satisfy the requirements of Rule 25 and other
statutory requirements for revivor and substitution of
parties.
Appellant filed an amended complaint on May 27.
The complaint named as defendants Nash Jr. and
Ap3

Glover, individually and as cotrustees of the trust and
as coadministrators of Norma's estate. Norma was still
listed in the complaint both individually and as trustee. The complaint incorporated the allegations contained in the original complaint and asserted four
causes of action—breach of contract, imposition of a
constructive trust, and two counts alleging interference
with a contract and business expectancy.
On June 24, Nash Jr. and Glover answered the
amended complaint. They denied that any personal
representatives or special administrators had been appointed for Norma's estate. On July 26, the circuit
court entered an order prepared by the attorney for
Nash Jr. and Glover dismissing appellant's claims
against Norma in her individual capacity because no
substitution had been entered within ninety days of the
suggestion of death as required by Arkansas Code Annotated section 28-50-102 (Repl. 2012).
On August 2, appellant filed a motion to vacate
the dismissal order. He alleged that the dismissal was
made without a dismissal motion having been filed. He
also recited that no probate proceedings had been initiated for Norma's estate.
Appellant filed an amended and supplemental
complaint on September 9. Nash Jr. and Glover answered individually and as cotrustees of Norma's trust.
However, they specifically denied that a special administrator had been appointed for Norma's estate.
Ap4

On February 27, 2017, appellant filed another
amended complaint keeping the same parties named as
in the first amended complaint and adding Lyle and
Perry as defendants "for Norma Nash, deceased."
A two-day jury trial was held on June 7 and 8,
2017. The jury returned verdicts in favor of "Defendants, Norma Nash and her substitutes and heirs" on
the issues of breach of contract, unjust enrichment, and
interference with business expectancy.
Before entry of the judgment in favor of the defendants, appellant filed a motion for new trial. The
judgment was entered on June 22. Appellant filed his
notice of appeal on July 21. When the circuit court did
not rule on appellant's motion for new trial within
thirty days, he timely filed an amended notice of appeal
to include the deemed denial of his motion.
Because appellant's first three points are premised on whether there has been proper substitution of
parties following Norma's death, we discuss them together. Appellant's three points are premised on the
contention that the circuit court somehow disregarded
the provisions of Arkansas Rule of Civil Procedure 25
and allowed the appellees to improperly delay the
opening of probate proceedings for Norma in an effort
to thwart the substitution of a proper defendant following Norma's death.
Although not stated as such, we believe that appellant's arguments raise the following issues: (1)
which party bears the burden of properly reviving the
Ap5

action following the death of a party; (2) whether the
lack of proper substitution renders the jury's verdict as
to appellant's claims against Norma individually a nullity; (3) who is the proper party to substitute following
Norma's death; and (4) whether the circuit court
properly dismissed the claims against Norma individually.
"The substitution of a new party to proceed with
the prosecution or defense of a claim is the revivor of
an action. The death of a party to a legal proceeding,
where the cause of action survives, suspends the action
as to decedent until someone is substituted for decedent as a party." Deaver v. Faucon Props., Inc., 367
Ark. 288, 291, 239 S.W.3d 525, 529 (2006) (quoting 1
C.J.S. Abatement and Revival § 155). An action cannot
be revived unless the cause of action survives. Id. At
common law, most actions grounded in contract survived the death of either party, but those in tort did not.
See McDonald v. Pettus, 337 Ark. 265, 988 S.W.2d 9
(1999); Wilson v. Young, 58 Ark. 593, 25 S.W. 870
(1894); Ward v. Blackwood, 41 Ark. 295 (1883). Thus,
appellant's individual contract claims against Norma
survived her death, subject to the claims' proper revival.
The burden having the action properly revived is on
the plaintiff or other party seeking relief from the
court. Speer v. Speer, 298 Ark. 294, 766 S.W.2d 927
Ap6

(1989); McDonald v. Petty, 254 Ark. 705, 496 S.W.2d
365 (1973); Wooley v. Planter's Cotton Oil Mill, Inc., 91
Ark. App. 213, 209 S.W.3d 409 (2005). It was appellant's cause of action against Norma; therefore, it was
up to him to substitute new defendants in place of
Norma if he wanted to continue his action. This brings
us to the question of the proper defendant to substitute
for Norma.
Arkansas Rule of Civil Procedure 25(a)(1), (2) governs the procedure for obtaining an order of revivor. It
provides in pertinent part as follows:
(a) Death. (1) If a party dies and the claim is not
thereby extinguished, the Court may order substitution of the proper parties. The motion for substitution
may be made by any party or by the successors or representatives of the deceased party, and such substitution may be ordered without notice or upon such notice
as the Court may require. Unless the motion for substitution is made not later than ninety (90) days after
the death is suggested upon the record by the service
upon the parties of a statement of the fact of death, the
action may be dismissed as to the deceased party.
(2) Upon the death of a plaintiff the proper party for
substitution shall be his personal representative or,
where the claim has passed to his heirs or to his devisees, the heirs or devisees may be substituted for the
deceased party. Upon the death of a defendant in an
Ap7

action wherein the claim survives against his personal
representative, the the personal representative shall
be the proper party for substitution. Except in an action for the recovery of real property only, or for the
adjudication of an interest therein, the heirs, devisees
or personal representative may be the proper parties
for substitution as the Court may determine. Where
the deceased party is acting in the capacity as personal
representative, his successor shall be the proper party
for substitution. (Emphasis added.)
Rule 25 is clear that in this situation, the personal
representative is the proper party to substitute as the
defendant for appellant's claims against Norma individually. Under Rule 25, the substitution of a defendant's heirs is appropriate only in actions involving real
property, which this case does not. When a plaintiff
dies, his or her cause of action passes to the heirs. But
unlike the situation in which a plaintiff dies, there is
no basis for substituting a deceased defendant's heirs
as the proper defendants. If a defendant's heirs are
substituted, they would become personally liable for
the deceased's action in tort or contract. However, a defendant's liability does not pass to his or her heirs, it
passes to his or her estate. Purcelly v. Carter, 45 Ark.
299 (1885).
In his amended complaint filed after the hearing
on his motion for revivor, appellant asserted that Nor
Ap8

ma's will named both Nash Jr. and Glover to act as coadministrators of her estate but that no order appointing a special administrator, an administrator, or a personal representative had been entered by any court.
Appellant alleged that Nash Jr. and Glover, individually and as cotrustees and coadministrators of Norma's
estate, were the proper defendants and should be appointed and substituted.
Appellant complains that Nash Jr. and Glover
waited until after the judgment had been entered in
this case before opening probate for Norma's estate.
However, appellant could have petitioned to have a
special administrator appointed for Norma's estate under various provisions of the probate code. See Nickles
v. Wood, 221 Ark. 630, 255 S.W.2d 433 (1953) (pursuant to what is now Ark. Code Ann. § 28-48-103 or pursuant to Ark. Code Ann. § 28-40-107). Although appellant appeared to ask that Nash Jr. and Glover be appointed, he chose not to follow through and relied on
them to probate their mother's estate. But Norma's
personal representative and heirs had no duty to seek
appointment. As a result, no order appointing a special
administrator or a personal representative was entered
before trial.
Likening this situation to that in Koonce v. Mitchell, 341 Ark. 716, 19 S.W.3d 603 (2000), appellant argues that because there was no proper substitution for
Norma, the circuit court lacked subject-matter jurisdic
Ap9

tion such that the jury's verdict on the contract claim
against Norma is a nullity. Appellant's reliance on
Koonce is misplaced because that case did not involve
the substitution of parties; rather it was a quiet-title
action in which the record owner of real property was
not made a party or given notice of the proceedings. Instead, issues of proper substitution of parties are generally matters of personal jurisdiction, not subject-matter jurisdiction. See Berryhill v. Synatzske, 2014 Ark.
169, 432 S.W.3d 637; Taylor v. MCSA, LLC, 2013 Ark.
430, 430 S.W.3d 113; Crenshaw v. Special Adm'r of Estate of Ayers, 2011 Ark. 222. The Taylor court concluded that the requirement of substitution is subject
to waiver.
We believe that the substitution issue has been
waived. Taylor, supra. Appellant continued to seek relief from the court by amending his complaint and proceeding to trial on the complaint as amended. See
Speer, supra. In Speer, the parties were divorced by a
decree entered in 1985, from which the husband appealed. We affirmed on direct appeal and modified and
remanded a child-support issue on cross-appeal. The
wife died while that appeal was in process, and her interest was pursued by her father as special administrator. After remand, husband again appealed the circuit
court's decision on property rights. Husband argued on
appeal that because there was no motion for revivor, all
subsequent proceedings after the first appeal were
Ap10

void. After pointing out that the child-support issue
was not properly before this court in the first appeal
due to the wife's death, the supreme court rejected the
revivor argument, stating,
Here, there can be no doubt but that any objec
tion to a failure of revivor had been waived by
[husband]. Following the appeal, there were not
one but two further hearings concerning matters
after remand. Both hearings were made at the
request of [husband], and in both instances, it
was [husband] seeking relief from the court. It
was not until nineteen months after [wife's]
death, on the very morning of the second hear
ing, that [husband] first raised the issue of
abatement by filing a motion to that effect. The
trial court dismissed the motion.
Speer, 298 Ark. at 300, 766 S.W.2d at 931. Appellant
has waived the question of revivor by continuing to
amend his complaint and going to trial without a
proper party substituted for Norma in her individual
capacity.
In his final challenge to the jury's verdict based on
substitution appellant argues that the circuit court
erred in dismissing his claims against Norma individually for lack of substitution. However, we need not decide this issue because any error that may have occurred in the dismissal was rendered harmless because
those claims were ultimately tried to a jury and a
Ap11

defense verdict returned. There is no explanation of
how this happened when the claims had been earlier
dismissed. Both sides acknowledge in their briefs that
the contract claim was tried to the jury.
Appellant's fourth point argues that the errors asserted in his first three points, when combined with appellees' request for attorney's fees, amounts to an error
of law, an abuse of discretion, and a violation of due
process. We need not consider this point because the
circuit court has not yet ruled on the motion for attorney's fees.
For his fifth point, appellant argues that the court
erred in denying him any reasonable discovery. The issue is not preserved for our review because the circuit
court never ruled on appellant's second motion to compel and for sanctions. Instead, the court held them in
abeyance until the proper parties were substituted.
The court also indicated that if appellant was dissatisfied with the discovery, he should bring the discovery
issue back to the court's attention for resolution. There
is nothing in the record showing that appellant did so.
However, it was appellant's burden to obtain a ruling
on the issue. When an appellant fails to obtain a ruling
below, we do not consider that point on appeal. See Bryant v. Bryant, 2009 Ark. App. 231, at 6, 303 S.W.3d 91,
95. Without a ruling by the circuit court on this issue,
there is nothing for us to review; therefore, we do not
address the issue. Johnson v. State, 303 Ark. 313, 316,
Ap12

796 S.W.2d 342, 345 (1990).
Finally, appellant argues that the circuit court
erred in not granting his motion for new trial. Under
this heading, appellant raises four subpoints: (1) error
in the substitution of parties following Norma's death;
(2) an irregularity in the proceedings preventing appellant from having a fair trial; (3) trying appellant's contract claim against Norma without a proper substitute
and in failing to instruct the jury on the Arkansas
Fraudulent Transfers Act, Ark. Code Ann §§ 5-59-201
to -215 (Repl. 2011 & Supp. 2017), amended by Uniform Voidable Transactions Act of 2017, No. 1087, 2017
Ark. Acts 5958; and (4) the verdict was against the preponderance of the evidence. We find no error.
Appellant's first subpoint relies on and incorporates the arguments he made above in his points about
substitution. These need not be repeated here.
In his second subpoint, appellant argues that the
behavior of Nash Jr. during his testimony upset the decorum of the court and impacted the jury's verdict.
Under Arkansas Rule of Civil Procedure 59(a)(1) and
(2), a new trial may be granted to all or any of the parties and on all or part of the claim on the application of
the party aggrieved, for any of the following grounds
materially affecting the substantial rights of such
party: (1) any irregularity in the proceedings or any order of the court or abuse of discretion by which the
party was prevented from having a fair trial and (2)
Ap13

misconduct of the jury or prevailing party.
We have held that a contemporaneous objection is
required when a new trial is sought on the basis of an
irregularity or misconduct under Rule 59(a)(1) and (2).
Thomas John Kennedy of Ark., DDS, PC v. Ausbrooks,
2016 Ark. App. 62, 482 S.W.3d 335.
Here, appellant failed to object on the basis of
Nash Jr.'s alleged theatrics and raised the issue for the
first time in his motion for new trial. Appellant objected during Nash Jr.'s testimony solely on the basis
that opposing counsel was leading the witness and testifying. Later, appellant was questioning Nash Jr.
when the witness gave a somewhat long, narrative answer, and appellant asked the court to control the witness, stating "Will the judge control the witness? He
can't just go on like that. I'd like to have direct answers
to my questions. Do you think you can do that?" Nash
Jr. replied, "Did I not answer you?" The court responded, "Let's keep it down. Just ask him a question."
We cannot say that appellant's request was specific enough to alert the circuit court to the problem. It
does not specifically call Nash Jr.'s behavior the perceived problem. The request could just as easily be interpreted as asking the court to direct the witness to be
more responsive and answer appellant's questions.
Moreover, appellant did not ask for an instruction to
the jury, a mistrial, or any other relief.
In his third subpoint, appellant contends that he
Ap14

is entitled to a new trial on the basis that the circuit
court erred in refusing appellant's proposed jury instruction based on the Arkansas Fraudulent Transfers
Act.
Appellant sought to have the jury instructed
based on AMI 2426 Implied Covenant of Good Faith
and Fair Dealing. The proffered instruction provided:
In addition to the express terms of a contract, the
law implies a promise between the parties that they
will act in good faith and deal fairly with one another
in performing and enforcing their obligations under the
contract. Stated another way, the law implies a promise between the parties that they will not do anything
to prevent, hinder, or delay the performance of the contract. However, the implied promise does not obligate
either party to take any action that is contrary to the
express terms of the contract.
You may consider the following alleged acts, hindrances, and delays of Norma Nash only as evidence of
a breach of the contract:
1) The alleged mismanagement of the store inLittle Rock as to empty shelves and storage space, disorganized and unpredictable closing times and other
such conduct discouraging the sale of said store by
Plaintiff;
2) The alleged violation of the Arkansas Fraudulent Conveyance Act as to Plaintiff in order to insulate
property and funds from Plaintiff's claim by transfer
Ap15

ring ownership of the property into the Norma F. Nash
Living Trust. In determining whether there was a violation of said Act, you may consider\ that a transfer
made or obligation incurred by a debtor is fraudulent
as to a creditor, whether the creditor's claim arose before or after the transfer was made or the obligation
was incurred, if the debtor made the transfer or incurred the obligation with actual intent to hinder, delay, or defraud any creditor of the debtor. In determining actual intent, consideration may be given, among
other factors, as to whether:
(1) the transfer or obligation was to an insider;
(2) the debtor retained possession or control of
the property transferred after the transfer; (3)
the transfer or obligation was disclosed or concealed; (4) before the transfer was made or obligation was incurred, the debtor had been sued or
threatened with suit; (5) the transfer was of substantially all the debtor's assets; (6) the debtor
absconded; (7) the debtor removed or concealed
assets; (8) the value of the consideration received
by the debtor was reasonably equivalent to the
value of the asset transferred or the amount of
the obligation incurred; (9) the debtor was insolvent or became insolvent shortly after the transfer was made or the obligation was incurred; (10)
the transfer occurred shortly before or shortly after a substantial debt was incurred; and (11) the
Ap16

debtor transferred the essential assets of the
business to a lienor who transferred the assets
to an insider of the debtor.
The circuit court gave the first paragraph of the proffered instruction, which did not involve the Arkansas
Fraudulent Transfers Act, but declined to give the second longer paragraph, calling it a comment on the evidence. This court will not reverse a circuit court's decision to give or reject an instruction unless the court
abused its discretion. Cantrell v. Toyota Motor Corp.,
2018 Ark. App. 335, 553 S.W.3d 157.
Appellant argues that although the circuit court
had dismissed the claims against Norma, the case proceeded to trial as a breach-of-contract case instead of
an interference-with-contract case and that the court
erred in not instructing the jury on the Arkansas
Fraudulent Transfers Act. We hold that the circuit
court reached the correct result in refusing the second
paragraph of appellant's proposed instruction because
there was no evidence to support the alleged acts listed
in that instruction. A party is entitled to a jury instruction when it is a correct statement of the law and there
is some basis in the evidence to support giving the instruction. Garrison v. Hodge, 2018 Ark. App. 556, 565
S.W.3d 107. There were only three mentions of the
trust in the abstract. There was no evidence whatsoever concerning the eleven indicators of a fraudulent
transfer of property into the trust. A circuit court can
properly refuse to give a jury instruction unsupported
Ap17

by the evidence. Holliman v. MFA Mut. Ins. Co., 289
Ark. 276, 711 S.W.2d 159 (1986); Woodruff Elec. Coop.
Corp. v. Daniel, 251 Ark. 468, 472 S.W.2d 919 (1971).
Appellant argues in his last subpoint that the verdict on his breach-of-contract claim was against the
preponderance of the evidence. Under Ark. R. Civ. P.
59, an appellant may be granted a new trial if "the verdict . . . is clearly contrary to the preponderance of the
evidence or is contrary to the law." Ark. R. Civ. P.
59(a)(6). Here, appellant's argument is that the defense
that he was paid in cash was not credible. He recognizes that the question is whether the jury's verdict
was supported by substantial evidence.
Our supreme court has noted that generally, a defense verdict will always be supported by substantial
evidence because the plaintiff has the burden of proof,
and the jury is the sole judge of credibility of witnesses
and the weight and value of the evidence. Webb v. Bouton, 350 Ark. 254, 262, 85 S.W.3d 885, 889-90 (2002).
Appellant cites opposing counsel's stipulation that appellant had performed the work. However, as both appellant and opposing counsel acknowledged, the real issue was whether appellant had been paid for that work
and how much he was owed. Moreover, appellant never
testified as to the number of hours he spent on the various matters or an appropriate hourly rate from which
the jury could calculate the amount due; instead,
Ap18

appellant testified that he was seeking recovery in
quantum meruit.6 He did testify that he was owed a
fee of $36,000 to be paid from the proceeds from the
sale of a warehouse that had not been paid. Appellant
testified that most payments were made by check. On
cross-examination, he acknowledged that there were
times when John Nash, Sr., would give him $200-$300
in cash but denied that this would have totaled over
$2,000 over a twenty-three-year period. There was also
an exhibit of an $18,000 check written by Norma to appellant as payment of appellant's fee from the sale of a
convenience store. Nash Jr. testified that appellant had
been paid in cash. The jury clearly could have credited
Nash Jr.'s testimony that appellant had been paid.
Because appellant's argument is clearly a challenge to the jury's credibility determination, we defer
to that determination and hold that the jury's verdict
was not against the preponderance of the evidence.
Affirmed.
GLADWIN and BROWN, JJ., agree.
Jim R. Nash, pro se appellant. Ed Daniel IV, P.A.,
by: Ed Daniel IV, LLM CPA, for appellees.
Footnotes:
1. Appellant filed a motion to certify the case to
the supreme court. However, the court denied the mo
tion on April 12, 2018. Appellant had earlier filed a
Ap19

petition for writ of certiorari and writ mandamus with
the supreme court in case number CV-17-54. That petition was denied by the supreme court on March 2,
2017.
2. Nash Jr. and Glover are two of the children of
Norma and John Nash, Sr. Susan Nash Lyle and Perry
Nash (Perry) are the other two children.
3. Appellant filed two sets of motions to compel
discovery. The first, filed on December 9, 2015, was
granted by the circuit court in orders entered on December 14, 2015. The second set of motions was filed on
January 13, 2016, and sought to enforce the court's orders from the first set of motions to compel discovery.
It is this second set of motions that is at issue in this
appeal.
4. One of the interference-with-a-contract and
business-expectancy counts was against Gaylen
McClanahan, the former manager of the liquor store.
Although McClanahan was named as a defendant in
each of the complaints, he was dismissed from the action on a directed verdict before the case was submitted
to the jury.
5. The circuit court never entered a ruling on appellant's motion to set aside the dismissal.
6. In his "First Amendment to the Amendment
and Supplement to the Complaint and Amended Complaint," appellant sought $255,000. Nash v. Nash, 2019
Ark. App. 173 (Ark.
Ap20

IN THE CIRCUIT COURT OF PULASKI COUNTY,
ARKANSAS, SECOND DIVISION
Filed: 06/22/17, C06D02
Jim R. Nash
Plaintiff
Vs.

No. 60-CV-15-1789

Norma Nash, Individually, and as Trustee of the
Norma F. Nash Living Trust; John Nash, Jr., Individually, and for Norma Nash, Deceased, as Co-Trustee of
the Norma F. Nash Living Trust, and as Co-Administrator of the Norma Nash Estate, Pam Nash Glover,
Individually, and for Norma Nash Deceased, as CoTrustee of the Norma F. Nash Living Trust, and as CoAdministrator of the Norma Nash Estate; Susan Nash
Lyle, Individually, and for Norma Nash, Deceased;
Perry Nash, Individually, and for Norma Nash, Deceased; and Gaylen Mcclanahan.
Defendants
JUDGMENT
On the 7th and 8th day of June, 2017, the claims of the
Plaintiff were tried to a twelve person jury. The Plaintiff appeared in person, separate defendants, John
Nash Jr., Perry Nash and Pam Glover appeared in
person, and all defendants appeared through their
attorney, Ed Daniel IV. After hearing the evidence and
the arguments of counsel and being instructed by the
Court, the jury rendered the following verdicts:
Ap21

(1) "On the issue of breach of contract, we the jury find
in favor of: Defendants, Norma Nash and her substitutes and heirs." Unanimous decision.
(2) "In the alternative to the claim for breach of contract, and on the issue of unjust enrichment, we the
jury find in favor of: Defendants, Norma Nash and her
substitutes and heirs.” Unanimous decision.
(3) "On the issue of interference with contract and business expectancy we the jury find in favor of the Defendants, John Nash, Jr., Pam Nash Glover, Perry Nash,
and Susan Nash Lyle."
The Court granted Defendants' Motion for directed verdict to dismiss separate defendant, Gaylen McClanahan, from this lawsuit, with prejudice, before the case
was submitted to the jury. Judgment on the jury verdicts above is now entered in favor of the remaining
Defendants. All claims by Plaintiff against the Defendants are dismissed with prejudice,
IT IS SO ORDERED on this 22nd day of June, 2017.
/s/
Chris Piazza
JUDGE CHRIS PIAZZA
Prepared by: /s/ Ed Daniel IV, PA #8800
Agreed as to form: _________________________
Jim R. Nash, Esq. #70051

Ap22

SUPREME COURT OF ARKANSAS
2019 Ark. 73
March 2, 2017
Jim R. Nash
vs.

Petitioner

No. CV-17-54

Pulaski County Circuit Court
Appellee
___________________________________
DISSENTING OPINION ON WRIT OF
MANDAMUS
JOSEPHINE LINKER HART, Justice
The majority believes that Mr. Nash has an adequate remedy at law, i.e., an appeal. After dissecting the complex procedural history of this case,it
appears that an appeal would not be available.
***
Without service of process on a personal representative of Norma's estate, the circuit court acquires no personal jurisdiction. Assuming that petitioner was able to get past the fact that the circuit
court's dismissal order was without prejudice, and
thus not a final order, this court could still not
Ap23

entertain an appeal because of' the circuit court-s
refusal to require the appointment of a special administrator for the purpose of substitution.
***
Finally, and most important, our jurisdiction to
entertain an appeal is derivative of the circuit court
having obtained jurisdiction. If the circuit court does
not obtain personal jurisdiction by valid service of
process, then this court does not obtain jurisdiction.
See John Norrell Arms, Inc. v. Higgins, 332 Ark. 249,
62 S.W.2d 801 (1998). Short of determining that the
circuit court did not, in fact, obtain personal jurisdiction, this court could act no further. Id. I am
aware that the limited purpose of a writ of mandamus is to enforce an established right or to compel
the performance of a duty. State v. Vittitow, 358
Ark. 98, 186 S.W.3d 237 (2004). The writ is issued
by this court only to compel an official or a judge to
take some action. Id. When requesting a writ of mandamus, a petitioner must show a clear and certain
right to the relief sought and the absence of any
other adequate remedy. Id. In the case before us,
petitioner's only way to get all the necessary parties
in court is for this court to compel the circuit judge
to perform the ministerial duty of appointing a special administrator as provided for by Arkansas
Code Annotated section 16-62-107. I therefore respectfully dissent.
Ap24

ARKANSAS SUPREME COURT
STATE OF ARKANSAS, )
) SCT
SUPREME COURT

)

FORMAL ORDER
BE IT REMEMBERED, THAT A SESSION OF
THE SUPREME COURT BEGUN AND HELD IN
THE CITY OF LITTLE ROCK, ON MARCH 2, 2017,
AMONGST OTHERS WERE THE FOLLOWING PROCEEDINGS, TO-WIT:
SUPREME COURT CASE NO. CV-17-54
JIM R. NASH

PETITIONER

V. APPEAL FROM PULASKI COUNTY CIRCUIT
COURT. SECOND DIVISION - 60CV-l 1789
PULASKI COUNTY CIRCUIT COURT, NORMA
NASH. INDIVIDUALLY, AND AS TRUSTEE OF THE
NORMA NASH LIVING TRUST; JOHN NASH, JR.,
AND PAM GLOVER, INDIVIDUALLY AND FOR
NORMA NASH (DECEASED) AS CO-TRUSTEES OF
THE NORMA NASH LIVING TRUST, AND AS
CO·ADMINISTRATORS OF THE NORMA NASH ESTATE; AND GAYLEN MCCLANAHAN
RESPONDENTS
Ap25

PETITIONER'S PETITION FOR WRIT OF
CERTIORARI AND WRIT OF MANDAMUS TO THE
CIRCUIT COURT OF PULASKI COUNTY AND
MOTION FOR TEMPORARY RELlEF ARE DENIED.
HART, J., DISSENTS. SEE DISSENTING OPINION
THIS DATE.
IN TESTIMONY THAT THE ABOVE IS A
TRUE COPY OF THE ORDER OF SAID
SUPREME COURT, RENDERED IN THE CASE
HEREIN STATED, I, STACY PECTOL, CLERK
OF SAID SUPREME COURT, HEREUNTO
SET MY HAND AND AFIX THE SEAL OF
SAID SUPREME COURT, AT MY OFFICE IN
THE CITY OF LITTLE ROCK, THIS 2ND DAY
OF MARCH, 2017.
/s/ Stacey Pectol
STACEY PECTOL
ORIGINAL TO CLERK (W/COPY OF OPINION)
CC/ENCL.: JIM R. NASH
ED DANIEL, IV
DAVID R. RAUPP, SENIOR ASSISTANT ATTORNEY GNENERAL
HONORABLE CHRISTOPHER
CHARLES PIAZZA, CIRCUIT JUDGE
Ap26

OFFICE OF THE CLERK
ARKANSAS SUPREME COURT
625 MARSHALL STREET
LITTLE ROCK, AR 72201
APRIL 17, 2019
RE: COURT OF APPEALS CASE NO. CV-17-827
JIM R. NASH V. NORMA NASH
INDIVIDUALLY AND AS TRUSTEE OF THE
NORMA F. NASH LIVING TRUST; ET AL
THE ARKANSAS COURT OF APPEALS ISSUED
THE FOLLOWING ORDER TODAY IN THE ABOVE
STYLED CASE: “APPELLANT’S PETITION FOR REHEARING IS DENIED. GRUBER, C.J. NOT PARTICIPATING.”
SINCERELY,
/s/ Stacey Pectol
STACEY PECTOL, CLERK
CC: JIM R. NASH
ED DANIEL, IV
PULASKI COUNTY CIRCUIT COURT, 2D DIV.
(CASE NO. 60CV-15-1789)

Ap27

OFFICE OF THE CLERK
ARKANSAS SUPREME COURT
625 MARSHALL STREET
LITTLE ROCK, AR 72201
JUNE 20, 2019
RE: SUPREME COURT CASE NO. CV-17-827
JIM R. NASH V. NORMA NASH INDIVIDU
ALLY AND AS TRUSTEE OF THE NORMA F.
NASH LIVING TRUST, ET AL.
THE ARKANSAS SUPREME COURT ISSUED
THE FOLLOWING ORDER TODAY IN THE ABOVE
STYLED CASE: “APPELLANT’S PETITION AND
AMENDED PETITION FOR REVIEW ARE DENIED.
HART, J., WOULD DISMISS THE PETITION FOR
REVIEW AS MOOT.”
SINCERELY,
/s/ Stacey Pectol
STACEY PECTOL, CLERK
CC: JIM R. NASH
ED DANIEL, IV
PULASKI COUNTY CIRCUIT COURT, 2D DIV.
(CASE NO. 60CV-15-1789)

Ap28

Filed: Cir Clrk
06/25/19 C06D02
OFFICE OF THE CLERK
ARKANSAS SUPREME COURT
625 MARSHALL STREET
LITTLE ROCK, AR 72201
JUNE 20, 2019
RE: SUPREME COURT CASE NO. CV-17-827
JIM R. NASH V. NORMA NASH INDIVIDU
ALLY AND AS TRUSTEE OF THE NORMA F.
NASH LIVING TRUST, ET AL.
THE ARKANSAS SUPREME COURT ISSUED
THE FOLLOWING ORDER TODAY IN THE ABOVE
STYLED CASE: “APPELLANT’S PETITION AND
AMENDED PETITION FOR REVIEW ARE DENIED.
HART, J., WOULD DISMISS THE PETITION FOR
REVIEW AS MOOT.”
SINCERELY,
/s/ Stacey Pectol
STACEY PECTOL, CLERK
CC: JIM R. NASH
ED DANIEL, IV
PULASKI COUNTY CIRCUIT COURT, 2D DIV.
(CASE NO. 60CV-15-1789)

Ap29

